<html>
<title> - TECHNICAL ASSISTANCE AND CAPACITY BUILDING PROGRAMS TO PROMOTE HOUSING AND ECONOMIC DEVELOPMENT</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                   TECHNICAL ASSISTANCE AND CAPACITY
                      BUILDING PROGRAMS TO PROMOTE
                    HOUSING AND ECONOMIC DEVELOPMENT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   HOUSING AND COMMUNITY OPPORTUNITY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 17, 2002

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 107-82


83-585              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    MICHAEL G. OXLEY, Ohio, Chairman

JAMES A. LEACH, Iowa                 JOHN J. LaFALCE, New York
MARGE ROUKEMA, New Jersey, Vice      BARNEY FRANK, Massachusetts
    Chair                            PAUL E. KANJORSKI, Pennsylvania
DOUG BEREUTER, Nebraska              MAXINE WATERS, California
RICHARD H. BAKER, Louisiana          CAROLYN B. MALONEY, New York
SPENCER BACHUS, Alabama              LUIS V. GUTIERREZ, Illinois
MICHAEL N. CASTLE, Delaware          NYDIA M. VELAZQUEZ, New York
PETER T. KING, New York              MELVIN L. WATT, North Carolina
EDWARD R. ROYCE, California          GARY L. ACKERMAN, New York
FRANK D. LUCAS, Oklahoma             KEN BENTSEN, Texas
ROBERT W. NEY, Ohio                  JAMES H. MALONEY, Connecticut
BOB BARR, Georgia                    DARLENE HOOLEY, Oregon
SUE W. KELLY, New York               JULIA CARSON, Indiana
RON PAUL, Texas                      BRAD SHERMAN, California
PAUL E. GILLMOR, Ohio                MAX SANDLIN, Texas
CHRISTOPHER COX, California          GREGORY W. MEEKS, New York
DAVE WELDON, Florida                 BARBARA LEE, California
JIM RYUN, Kansas                     FRANK MASCARA, Pennsylvania
BOB RILEY, Alabama                   JAY INSLEE, Washington
STEVEN C. LaTOURETTE, Ohio           JANICE D. SCHAKOWSKY, Illinois
DONALD A. MANZULLO, Illinois         DENNIS MOORE, Kansas
WALTER B. JONES, North Carolina      CHARLES A. GONZALEZ, Texas
DOUG OSE, California                 STEPHANIE TUBBS JONES, Ohio
JUDY BIGGERT, Illinois               MICHAEL E. CAPUANO, Massachusetts
MARK GREEN, Wisconsin                HAROLD E. FORD Jr., Tennessee
PATRICK J. TOOMEY, Pennsylvania      RUBEN HINOJOSA, Texas
CHRISTOPHER SHAYS, Connecticut       KEN LUCAS, Kentucky
JOHN B. SHADEGG, Arizona             RONNIE SHOWS, Mississippi
VITO FOSSELLA, New York              JOSEPH CROWLEY, New York
GARY G. MILLER, California           WILLIAM LACY CLAY, Missouri
ERIC CANTOR, Virginia                STEVE ISRAEL, New York
FELIX J. GRUCCI, Jr., New York       MIKE ROSS, Arizona
MELISSA A. HART, Pennsylvania         
SHELLEY MOORE CAPITO, West Virginia  BERNARD SANDERS, Vermont
MIKE FERGUSON, New Jersey
MIKE ROGERS, Michigan
PATRICK J. TIBERI, Ohio

             Terry Haines, Chief Counsel and Staff Director

           Subcommittee on Housing and Community Opportunity

                    MARGE ROUKEMA, New Jersey, Chair

MARK GREEN, Wisconsin, Vice          BARNEY FRANK, Massachusetts
    Chairman                         NYDIA M. VELAZQUEZ, New York
DOUG BEREUTER, Nebraska              JULIA CARSON, Indiana
SPENCER BACHUS, Alabama              BARBARA LEE, California
PETER T. KING, New York              JANICE D. SCHAKOWSKY, Illinois
ROBERT W. NEY, Ohio                  STEPHANIE TUBBS JONES, Ohio
BOB BARR, Georgia                    MICHAEL E. CAPUANO, Massachusetts
SUE W. KELLY, New York               MAXINE WATERS, California
BOB RILEY, Alabama                   BERNARD SANDERS, Vermont
GARY G. MILLER, California           MELVIN L. WATT, North Carolina
ERIC CANTOR, Virginia                WILLIAM LACY CLAY, Missouri
FELIX J. GRUCCI, Jr, New York        STEVE ISRAEL, New York
MIKE ROGERS, Michigan
PATRICK J. TIBERI, Ohio


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    September 17, 2002...........................................     1
Appendix:
    September 17, 2002...........................................    29

                               WITNESSES
                      Tuesday, September 17, 2002

Jones, Hon. Stephanie Tubbs, a Representative from the State of 
  Ohio...........................................................     4
Fayde, Reese, CEO, Living Cities.................................    11
Harris, Greta, Senior Program Director, Local Initiatives Support 
  Corporation....................................................    17
Harvey III, F. Barton, Chairman and CEO, The Enterprise..........     9
McCool, Thomas, Managing Director of Financial Markets and 
  Community Investment, General Accounting Office................     7
Rasheed, Abdul, President and CEO, North Carolina Community 
  Development Initiative on behalf of The National Congress for 
  Community Economic Development.................................    13
Swack, Michael, Director, School of Community Economic 
  Development, Southern New Hampshire College....................    14

                                APPENDIX

Prepared statements:
    Kelly, Hon. Sue W............................................    30
    Cantor, Hon. Eric............................................    32
    Grucci, Hon. Felix J.........................................    33
    Jones, Hon. Stephanie T......................................    35
    Lee, Hon. Barbara............................................    37
    Fayde, Reese.................................................    39
    Harris, Greta................................................    75
    Harvey III, F. Barton........................................   100
    McCool, Thomas...............................................   106
    Rasheed, Abdul...............................................   118
    Swack, Michael...............................................   129

              Additional Material Submitted for the Record

Kelly, Hon. Sue W.:
    Letter to General Accounting Office, September 17, 2002......   135
Watts, Hon. J.C. Jr., Chairman, House Republican Conference, 
  prepared statement.............................................   137
Harris, Greta:
    Written response to questions from Hon. Stephanie Tubbs Jones   139
Harvey III, F. Barton:
    Written response to questions from Hon. Stephanie Tubbs Jones   147

 
                   TECHNICAL ASSISTANCE AND CAPACITY
                      BUILDING PROGRAMS TO PROMOTE
                    HOUSING AND ECONOMIC DEVELOPMENT

                              ----------                              


                      Tuesday, September 17, 2002

             U.S. House of Representatives,
                        Subcommittee on Housing and
                             Community Opportunity,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:10 p.m., in 
Room 2128, Rayburn House Office Building, Hon. Sue W. Kelly 
presiding.
    Present: Representatives Kelly, Lee, Jones, Waters and 
Watt.
    Mrs. Kelly. Good afternoon. This hearing of the 
Subcommittee on Housing and Community Opportunity will come to 
order. I want to thank all the Members of Congress who are 
present today. Without objection, many people are coming back 
to Washington, D.C., from their districts, and they have got 
planes and trains, but they are interested in this topic, and 
they will participate fully should they be able to get here in 
time for the hearing. And all opening statements that they may 
have and questions will be made part of the official hearing 
record.
    Mrs. Kelly. Now, the Chair recognizes herself for a brief 
opening statement.
    Today the subcommittee will examine technical assistance 
and capacity-building programs, crucial tools in addressing the 
needs of low-income individuals and communities. This hearing 
will help us understand how technical assistance is used, what 
changes, if any, are needed to make it more cost-effective, and 
whether additional resources are necessary.
    The Department of Housing and Urban Development provides 
technical and capacity-building assistance to State and local 
governments, public and Indian agencies, private and nonprofit 
organizations and individuals. HUD administers 21 technical 
assistance programs through 5 program offices. The annual 
funding for HUD technical assistance is around 1 percent of the 
HUD's overall budget per year, which ranges from $128 million 
to $201 million. The general purpose of this technical 
capacity--technical and capacity-building assistance is to help 
program participants carry out the HUD program goals.
    The terms "technical assistance" and "capacity building" 
are often used with some imprecision. For this reason, last 
year on July 12th, 2001, Chairwoman Roukema requested the 
General Accounting Office to conduct a review of technical 
assistance and capacity-building programs at the Department of 
Housing and Urban Development. Chairwoman Roukema thought the 
committee would benefit from a better understanding on the 
scope and purpose of these programs. Today the GAO will give us 
a preliminary report on their findings regarding technical 
assistance.
    Today's hearing will largely focus on community-based 
development corporations, CDCs. These organizations are the 
primary recipients of technical and capacity-building 
assistance. There are over 3,600 CDCs in the United States, 
located in almost every large and medium-sized city in the 
Nation, as well as in many rural communities. They are 
frequently the most productive developers of affordable housing 
in low-income communities and are instrumental in meeting the 
human needs for individuals and communities. In fact, in many 
communities, the government has turned to CDCs as the primary 
vehicle to rebuild distressed neighborhoods.
    CDCs are generally small organizations with an average 
annual budget of $200,000 to $399,000 and a median staff size 
of six. Because of the increasingly complex nature of funding 
procurement and execution of community revitalization programs, 
CDCs often require outside help. These organizations also tend 
to have frequent staff turnover, and, as a result, they need 
increased training funds. Subsequently, technical and capacity-
building funds are essential to their existence.
    We are very pleased to have with us today Congresswoman 
Stephanie Tubbs Jones, a representative of the GAO to discuss 
the findings of their study, and witnesses from several 
community-based development groups. We thank all of our 
witnesses for taking the time out of their busy schedules to 
share their thoughts on this issue and look forward to 
discussing these issues with them.
    And, Congresswoman Tubbs Jones, you didn't realize you were 
working with the GAO, but we are delighted to have you here.
    [The prepared statement of Hon. Sue W. Kelly can be found 
on page 30 in the appendix.]
    Mrs. Kelly. I would like to now recognize my friend from 
North Carolina for his opening statement Mr. Watt.
    Mr. Watt. Thank you, Madam Chair, and I want to thank 
Chairman Oxley for agreeing during the course of the markup on 
the Housing Affordability for America Act to assure that this 
hearing would be conducted to give us the opportunity to 
explore the merits of H.R. 3995, which has been introduced by 
Representative Stephanie Tubbs Jones. And I want to thank 
Stephanie Tubbs Jones for introducing this important 
legislation which I am pleased to be a cosponsor of.
    I also want to thank Chairman Roukema--I am sorry. It is 
H.R. 3974, not 3995. But anyway, she knows what I am talking 
about.
    I want to thank Chairman Roukema for scheduling the hearing 
and wish her well as she is getting her treatment and is not 
able to be here today, and thank Representative Kelly for 
presiding over today's hearing.
    The Chair--Representative Kelly has indicated that one of 
the major problems in our community in terms of economic 
development is having the expertise and capacity to pull all of 
the resources together and to implement community development 
plans efficiently and effectively, and this bill is designed to 
do that. It is designed to do that in ways that I am sure the 
lead sponsor of the bill will elaborate upon. But we know in 
our communities how much of an impediment it is not to have 
both financial resources, expertise and capacity as we try to 
revitalize, restore, renew our communities, and anything we can 
do to be of assistance in that regard is always helpful.
    So I am looking forward to the testimony of the witnesses, 
my colleague Stephanie Tubbs Jones and the persons who have 
come to be on panel 2, and I especially want to welcome my 
friend Abdul Rasheed from North Carolina, who I have known for 
a long time. And I think I am going to get a chance to 
introduce him, so I won't elaborate. I will save all my good 
things for my introduction.
    So I thank the Chairman for convening the hearing and look 
forward to hearing the testimony of the witnesses, and I will 
yield back the balance of my time.
    Mrs. Kelly. Thank you, Mr. Watt.
    Mrs. Kelly. Ms. Lee, have you an opening statement?
    Ms. Lee. Thank you, Madam Chair. Let me thank you and also 
our chairman for moving forward with this hearing on this bill, 
and I want to thank Congresswoman Stephanie Tubbs Jones for 
sponsoring this important legislation and for your very 
diligent efforts to bring the real issues before this Congress 
with regard to community development corporations and what they 
need to move forward to ensure livable communities.
    Just last week, Madam Chair, during our Congressional Black 
Caucus annual conference, Congresswoman Tubbs Jones and myself 
sponsored a forum on community development corporations. We 
brought in community groups from our districts and around the 
country to learn more about the progress they are making in 
building better and more livable communities and to hear more 
about their real and growing needs for both technical and 
financial assistance. Providing this assistance and passing 
this legislation is essential, and we heard that over and over 
and over again at our forum, because community development 
corporations have the community presence. They have the 
networks. They have the leadership-building capacity, enabling 
neighborhoods to plan and monitor, to develop livable 
communities.
    CDCs--and we heard this again and again and again--they are 
in a position to promote greater community awareness about the 
importance of housing, education, early childhood development 
and economic empowerment. Community development corporations 
are really the cornerstone for many of our communities.
    By using two generation approaches to the more vulnerable 
families in our community, and by paying close attention to 
school readiness strategies and outcome indicators, and leading 
or participating in strategic community planning for young 
children and families, CDCs and policymakers really can help us 
provide for the end of the cycle of poverty throughout our 
neighborhoods.
    So this bill--and I will ask that my full statement be 
submitted for the record, but, Madam Chair, I just want to say 
this bill, I think, is a very important major step to ensure 
that community development corporations receive the type of 
technical and financial assistance that they so deserve, 
because they are doing a major service in our communities to 
provide really for the economic development, economic 
empowerment and for livable communities for many of our areas 
in our region.
    So I just want to thank Congresswoman Tubbs Jones again for 
her vision and leadership and for really working together in a 
bipartisan fashion to bring this bill before us today. I look 
forward to the testimony.
    Mrs. Kelly. Thank you, Ms. Lee.
    [The prepared statement of Hon. Barbara Lee can be found on 
page 37 in the appendix.]
    Mrs. Kelly. That concludes our opening statements. We will 
now begin with our first panel. Testifying on our first panel 
is the Honorable Stephanie Tubbs Jones, the distinguished 
member from this subcommittee and the Congresswoman from Ohio's 
11th Congressional District. The Congresswoman has a strong 
interest in the issue of HUD technical assistance and has 
introduced legislation to increase funding.
    Not only is she a Congresswoman and a colleague, but Mrs. 
Tubbs Jones is one of my friends, and I am delighted to welcome 
you here this afternoon. I thank you for joining us to share 
your thoughts on this important issue. So without objection, 
your written statement will be made a part of the record, and 
you will now be recognized for a 5-minute summary of your 
testimony. Thank you. You may begin, Mrs. Tubbs Jones.

 STATEMENT OF HON. STEPHANIE TUBBS JONES, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mrs. Jones. Thank you, Madam Chairwoman, and I appreciate--
thank you, Madam Chairwoman for holding this hearing on 
technical assistance. For the record, I would like to thank 
Congresswoman Roukema for her support and her agreeing to give 
us this hearing on this particular issue. I would like to thank 
Congressman Watt and Congresswoman Barbara Lee for attending 
and being signatories to this legislation, as well as the staff 
of both the Democrat Majority and Minority side.
    I introduced this legislation on March 14th with my 
esteemed colleague Congressman J.C. Watts, and this bill has 
attracted strong bipartisan support. Congressman Watts would 
have been here to testify, but unfortunately he had to preside 
over a funeral in his congressional district.
    I am an advocate for community development corporations, 
because these organizations play an important role in poverty 
elimination. Their approach is focused on economic development 
through affordable housing, business development, job creation 
and a range of activities that involve community residents in 
antipoverty and wealth-building activities. This approach is 
more critical than providing social services because it focuses 
on empowerment, building infrastructure within communities.
    Community development corporations grew out of the civil 
rights movement of the 1960s. They were typically formed from 
grassroots volunteers who were in touch with the economic needs 
of poor and underserved communities. Over the past 30 years, 
the government has turned to CDCs as the primary vehicle to 
rebuild distressed neighborhoods. There are CDCs in nearly 
every large and medium-sized city in the Nation as well as in 
many rural areas.
    I am going to skip over to say technical assistance and 
core operating support allow community development corporations 
to access training materials and other forms of assistance to 
promote self-sufficiency. Core operating support helps sustain 
organizations while they develop. To give an example, in my own 
community of Cleveland, a community development corporation 
might seek training for board members on how to manage equity 
investments. A church operating a separate nonprofit might 
obtain technical assistance to provide training on fund-
raising. A community development corporation might hire an 
accountant or an attorney to utilize a new market's tax credit 
allocation.
    Most CDCs grow from efforts within communities and are run 
on a shoestring. If they are effectively run on a shoestring, 
at what level might they operate with a full set of shoelaces? 
My colleague J.C. Watts and I introduced H.R. 3974 to provide 
them with that full set of shoelaces with technical assistance, 
core operating support and guidance on the ways to improve 
their operations.
    The government distributes $15 billion for technical 
assistance, but very little goes to help CDCs operating in low-
income communities. Since the 1980s, there have been few 
dollars to help these organizations. Most dollars go towards 
tax credits utilized by investors or government entities that 
support the project. In order to progress to the next level, 
CDCs need technical assistance funds to build their internal 
infrastructure and a system of accountability to ensure that 
their organizations are effectively run.
    The last point that I want to make is that this legislation 
would establish--let me start to go back. Some argue that 
existing programs adequately cover technical assistance needs 
of CDCs. Existing programs are useful, but more is needed 
because the scope of current programs is limited. H.R. 3974 
will provide the technical assistance, core operating support--
you heard all that.
    Among its other functions, it will cover emerging to mature 
organizations, access to financial and construction expertise, 
mentoring, assistance with leveraging private funds, training 
and research, equity investments and the CRA credits for 
financial institutions that work with eligible CDCs. It has no 
matching requirement for funds, which is truly a mechanism to 
empower organizations.
    Last of all, and most important, the legislation would 
establish an advisory council within HUD to examine the 
capacity needs of CDCs and provide feedback and measurement of 
their effectiveness. This last point is important because with 
support comes responsibility. When government provides funding 
for technical assistance and core operating support, CDCs need 
to meet tough performance tests in return. It would provide 
support to diagnose organizational problems and provide the 
appropriate technical help to enable groups to fulfill their 
missions and ensure that tax dollars of the American people are 
efficiently and effectively used.
    Madam Chairwoman, thank you again for holding this hearing 
and for your commitment to housing and economic development. I 
look forward to the testimony of the invited guests this 
afternoon, and I want to thank each and every one of the 
witnesses that have come here to testify this afternoon for 
their input on this very important legislative issue.
    Mrs. Kelly. Thank you very much, Mrs. Tubbs Jones.
    [The prepared statement of Hon. Stephanie Tubbs Jones can 
be found on page 35 in the appendix.]
    Mrs. Kelly. Mr. Watt, have you questions?
    Mr. Watt. Madam Chair, I think it is customary for us not 
to question our colleagues.
    Mrs. Kelly. Ms. Lee?
    Mr. Clay?
    Ms. Waters?
    Ms. Waters. No questions.
    Mrs. Kelly. Well, if there are no questions, then the Chair 
notes that Members may have some questions that they want to 
submit in writing, so without objection, we will hold the 
hearing record open for 30 days.
    Mrs. Kelly. This first panel is excused. We thank you very 
much, and we will welcome your presence here with us. Thank you 
for testifying.
    And with that, if the second panel will please take their 
seats at the witness table, I will begin the introductions.
    On our second panel, we first welcome back Thomas McCool, 
the Managing Director of Financial Markets and Community 
Investment at the General Accounting Office, the investigating 
arm of the U.S. Congress.
    Next we also welcome back Bart Harvey, the chairman of the 
board of trustees and chief executive officer of the Enterprise 
Foundation. The foundation launched in 1982 and works with 
partners to rebuild communities by providing low-income people 
with affordable housing.
    Then we will hear from Reese. And, Reese, if you would be 
good enough to tell me the correct pronunciation of your name.
    Ms. Fayde. Reese Fayde.
    Mrs. Kelly. Thank you.
    We will hear from Reese Fayde, chief executive officer of 
Living Cities, formerly known as the National Community 
Development Initiative, a partnership of leading foundations, 
financial institutions and the Federal Government committed to 
improving the vitality of cities and urban neighborhoods.
    I will now yield to my friend from North Carolina to 
introduce the next witness.
    Mr. Watt. Thank you, Madam Chair. I am pleased that you 
have given me the opportunity and pleasure of introducing my 
friend and colleague from North Carolina. In North Carolina 
when we think of community development corporations, we 
normally think of Abdul Rasheed, who will be the fourth witness 
in this panel.
    He is the founding president and chief executive officer of 
the North Carolina Community Development Initiative, and that 
initiative provides resources and assistance to all of the 
community development corporations throughout North Carolina. 
The initiative was founded in 1994 to channel funds and provide 
training and technical assistance to community development 
corporations in North Carolina, and it is funded by private 
foundations, the North Carolina General Assembly, financial 
institutions and private sector resources.
    I thank the Chair for allowing me the pleasure of 
introducing Mr. Abdul Rasheed.
    Mrs. Kelly. Thank you, Mr. Watt.
    We will also hear from Dr. Michael Swack, the director of 
the School of Community Economic Development at Southern New 
Hampshire University. He is the former chairman of the New 
Hampshire Community Development Finance Authority and has 
extensive consulting and teaching experience in the areas of 
financial institutions and development finance.
    Finally, we will hear from Greta Harris, the senior program 
director of the Local Initiative Support Corporation, otherwise 
known as LISC. She comes to us today from Richmond, Virginia, 
where she manages the planning and operation of LISC's Richmond 
office.
    I want to thank you all for taking time out of your 
schedules to join us here today and share your thoughts on 
these issues. Without objection, your written statements will 
be made part of the record. You will each be recognized now in 
turn for a 5-minute summary of your testimony, and we will 
begin with you, Mr. McCool. Thank you for being with us today.

 STATEMENT OF THOMAS J. MCCOOL, MANAGING DIRECTOR OF FINANCIAL 
  MARKETS AND COMMUNITY INVESTMENT, GENERAL ACCOUNTING OFFICE

    Mr. McCool. Thank you, Madam Chairwoman and members of the 
subcommittee. We are here today to discuss the results of our 
review of the U.S. Department of Housing and Urban 
Development's technical assistance and capacity-building 
programs. HUD's fiscal year 2002 budget is over $34 billion, 
most of which is passed on to State and local governments, 
other agencies and organizations that carry out HUD's programs. 
Technical assistance and capacity-building is an important 
means through which HUD can influence how its program funds are 
spent.
    The Congress and HUD often use the terms "technical 
assistance" and "capacity building" interchangeably, and the 
definitions do overlap. Technical assistance programs can be 
generally defined as training designed to improve the 
performance or management of program recipients such as 
teaching one on one about procurement regulations to housing 
authority staff. Capacity building can be generally defined as 
funding to strengthen the planning, management and other 
capabilities of program recipients or providers, typically 
housing or community development organizations, thereby 
building institutional knowledge within these organizations.
    Some of the programs have both technical assistance and 
capacity-building aspects. The overall goal of both technical 
assistance and capacity building is to enhance the delivery of 
HUD's housing and community development programs. While HUD's 
staff, whose costs are covered by HUD salary and expense 
budgets, routinely provide a wide range of technical assistance 
as part of their day-to-day activities, our work focused on 
funding specifically authorized by Congress to be used for 
technical assistance and capacity building.
    We were asked to examine the universe of technical 
assistance and capacity-building programs in HUD so that you 
could better understand the scope and purpose of the programs. 
Our statement focuses on the number of HUD technical assistance 
and capacity-building programs Congress has authorized and how 
much they cost; why HUD offers technical assistance and 
capacity-building programs, and who provides and receives the 
services; how HUD selects the program providers; and whether 
HUD program offices are overseeing the programs as required and 
measuring their impact.
    As you have already said, Madam Chairwoman, HUD administers 
21 technical assistance and capacity-building programs through 
five program offices. From fiscal year 1998 to 2002, the annual 
funding ranged from about 128 to 201 million, accounting for 
less than 1 percent of HUD's overall budget.
    While the general purpose of HUD's technical assistance and 
capacity building is to help program recipients carry out HUD 
program goals, each program office designs technical assistance 
or capacity building to specifically relate to its programs. 
Recipients could be States and units or local governments, 
public and Indian housing agencies, private and nonprofit 
organizations or individuals. Providers could be HUD officials 
or, more commonly, State and local governments, private and 
nonprofit organizations, public housing authorities.
    HUD awards funding for 17 of the 21 technical assistance 
and capacity-building programs competitively. The funding of 
the remaining programs is awarded noncompetitively. HUD uses 
three types of funding instruments, contracts, grant agreements 
and cooperative agreements, and determines which type to use on 
the basis of the relationship with the awardees and the level 
of Federal involvement anticipated. Depending on the complexity 
of the individual program office's funding instrument 
requirements, the process can take between 3 months to a year 
to complete.
    Noncompetitive funding is either specified by statute or 
based on the formula set by HUD. Specifically Congress 
appropriates technical assistance and capacity-building funds 
noncompetitively for the Enterprise Foundation, Habitat for 
Humanity, Youthbuild USA and the Housing Assistance Council 
under the Community Development Block Grant Program.
    The Local Initiative Support Corporation and the Enterprise 
Foundation administer the funding for, among other purposes, 
the National Community Development Initiative under Section 4 
of the HUD Demonstration Act of 1993 as amended. Congress also 
appropriates noncompetitive funding for the National American 
Indian Housing Council technical assistance programs. And in 
addition, HUD's Office of Fair Housing and Equal Opportunity 
use the formula to distribute fair housing and assistance 
programs--I am sorry, fair housing and assistance program 
capacity-building funds.
    These noncompetitive technical assistance capacity-building 
programs comprise $50 million, or about 25 percent, of fiscal 
2001 technical assistance and about 54-1/2 million, or 30 
percent, of fiscal year 2002 technical assistance funding. All 
five HUD programs--sorry, all five HUD program offices perform 
basic oversight of the technical assistance and capacity-
building programs they administer, such as visually observing 
the technical assistance, training, or reviewing reports 
submitted by the providers.
    While some HUD officials maintain that they cannot measure 
the impact of technical assistance or capacity building, other 
officials have developed and are using measures that seem to be 
reasonable indicators of the impact of their programs.
    While some measures may not be practicable for every--while 
such measures may not be practicable for every program, HUD 
cannot demonstrate the effectiveness of this technical 
assistance and capacity building without some indication of its 
impact. Furthermore, without such measures, HUD cannot ensure 
accountability for the near $200 million that Congress sets 
aside each year for technical assistance, training or capacity-
building funding.
    Finally, since technical assistance and capacity building 
are important means through which HUD oversees and influences 
expenditures or program funds, it would seem logical for each 
of its program offices to develop more practicable guidance to 
ensure the technical assistance in the capacity-building 
programs are producing the intended results.
    Madam Chairwoman, this concludes my statement. I would be 
happy to respond to any questions you or other members of the 
subcommittee may have.
    Mrs. Kelly. Thank you very much.
    [The prepared statement of Thomas J. McCool can be found on 
page 106 in the appendix.]
    Mrs. Kelly. We will move on to Mr. Harvey.

   STATEMENT OF F. BARTON HARVEY, III, CHAIRMAN AND CEO, THE 
                     ENTERPRISE FOUNDATION

    Mr. Harvey. Thank you very much, Madam Chairwoman, for this 
opportunity. I am Bart Harvey, chairman and CEO of the 
Enterprise Foundation, and Enterprise currently is putting more 
than half a billion dollars a year to work in low-income 
communities, mostly through community-based groups. The real 
unsung heroes, as you have heard from other witnesses, are the 
heads of these grassroots groups that provide affordable homes, 
economic opportunity, decent child care and safer streets where 
they are needed most.
    And Enterprise believes that community-based development 
organizations are vitally important institutions that warrant 
continued and expanded public and private support. We commend 
Representative Tubbs Jones, who I will be with tomorrow evening 
for the Louis Stokes award in Cleveland, and Representative 
Watts for their bill and for recognizing the need for more 
support for grassroots groups in their bill. And I also commend 
NCCED for its work on this essential bill.
    In 20 years of working shoulder to shoulder with grassroots 
groups to solve some of our toughest problems, we have seen 
firsthand what they can achieve, but they can't do it alone. 
Even the most sophisticated organizations need reliable 
resources and expert advice to maintain and expand their 
successes. The huge majority of support for community-based 
developers comes from the private sector, but the Federal 
Government plays a vital role.
    While Enterprise undertakes a large variety of capacity-
building efforts, I think there is one that is particularly 
important to look at for the principles of accountable, 
successful technical assistance and capacity building, and that 
is the HUD Section 4 program. Through Section 4, Congress 
channels Federal funds through national intermediaries like 
Enterprise to help strengthen community-based groups. These 
funds help grassroots groups hire and retain staff, invest in 
technology, develop business plans, improve internal systems 
and pursue new opportunities. And much of this funding is 
committed on a multiyear basis, which is critical.
    The purpose of Living Cities was really to work on all of 
the environments within which these grassroot groups work. 
Between 1991 and 2000, Living Cities funds directly helped 
community-based groups develop almost 20,000 affordable homes, 
1.7 million square feet of commercial and community facilities. 
In an independent evaluation, the Urban Institute found that 
community groups' strength, production and local support 
systems have grown significantly thanks to these efforts in the 
23 target cities.
    Now, Enterprise also employs Section 4 resources outside of 
Living Cities locations, the 23 cities, and we have used these 
funds to assist more than 200 groups and nearly 100 other 
communities, including many rural and Native American areas. 
And according to another outside independent evaluation, the 
Section 4 program outside of the 23 targeted Living Cities 
locations met and exceeded Congress' goal in creating it.
    Now, what are the factors of its success? First, Section 4 
provides Federal funding to strengthen community and faith-
based development groups. It goes directly to these groups. 
Those resources are sorely needed and hard to find. This 
Federal support encourages greater private participation. In 
fact, it is vital to supporting it. It is looking for the 
Federal funds to be leveraged by other private support. 
Secondly, the money is flexible. This allows recipients to meet 
a wide range of local needs and opportunities in a variety of 
locations.
    Third, Section 4 relies on experienced intermediaries with 
national reach, such as Enterprise, to deliver resources and to 
help improve the local public-private partnerships. We provide 
training and technical assistance to groups in combination with 
the funding, and we generate strong local support for community 
development going forward to further leverage Federal support.
    Fourth, Section 4 is successful due to the leverage it 
achieves. Section 4 recipients must match every Federal dollar 
with at least 3 additional dollars of private support. In 
practice, Enterprise far exceeds that requirement with the 
groups that it is working with. Matching funds and additional 
financial leverage are hugely important to community capacity-
building initiatives. They ensure that the Federal Government 
maximizes the return on its investment, and they provide 
additional accountability on the use of Federal funds by 
increasing the number of stakeholders in an organization's 
success.
    Finally, Section 4 works because Enterprise ensures a high 
level of accountability through the groups that we assist. 
There are detailed regular reports, site visits, audits, and we 
assure that capacity-building funds are spent appropriately.
    The only problem with Section 4 funds is that there is not 
enough to support all of the groups that apply for the funding. 
With more resources, this proven model for strengthening 
community-based groups could have greater success than it 
already has. This is not the only way to provide this 
assistance, but it is one that has worked, and we really 
commend this bill and what it stands for concerning additive 
funds for capacity building.
    Mrs. Kelly. Thank you very much, Mr. Harvey.
    [The prepared statement of F. Barton Harvey can be found on 
page 100 in the appendix.]
    Mrs. Kelly. Ms. Fayde.

          STATEMENT OF REESE FAYDE, CEO, LIVING CITIES

    Ms. Fayde. Thank you very much. It is a pleasure to have 
this opportunity to address the subcommittee on this very 
important piece of legislation.
    What I would like to begin with is really to tell you a 
little bit about who Living Cities is, because I think that 
will make it so clear to you why we are so supportive of this 
endeavor. I think eloquently described by earlier speakers, we 
have seen really what the work of CDCs is about, but when we 
talk about this group, we are 16 funders. They are made up of 
America's large foundations and made up of large financial 
institutions that came together with the explicit intent of 
wanting to invest in American cities by investing through 
community development corporations in inner cities. So the 
Nation was to try to address the conditions of our inner cities 
as a way of really helping to strengthen America's cities.
    Ten years of operation and real successes we can look to: 
$254 million having been invested in 23 locations with 
leveraging of in excess of $2 billion worth of investments in 
housing, in community facilities and in a whole array of 
institutions that really support inner cities today.
    In the second decade there is a recommitment, and I 
underscore that it is a recommitment. It is certainly of 
dollars. We are expecting that the funder--the funders are 
expecting to put in a half billion dollars over another second 
decade. This is unprecedented in terms of a level of private 
investment in America's cities. We are also expanding our 
agenda to address neighborhoods and what is going on in those 
neighborhoods, but also the connection of that work with 
larger--the larger community, with cities. How do we link the 
residents in our inner cities to the region's economy? That is 
a major part of what we are doing as we see it in our expanded 
agenda.
    And the third part of our recommitment is really about 
collaboration. Clearly this is a collaboration of funders, but 
it has also served as a catalyst to local funders joining with 
us, local partners, local organizations that are part of making 
all of this work take place.
    We work through CDCs, because, as others have described, we 
really see these as vehicles that do work. I am reminded of one 
mayor who said to us once that he liked CDCs because they were 
scrappy organizations, they were entrepreneurial and could get 
things done that he couldn't do with the bureaucracy in his 
city. I will let you all guess who that mayor was. And he was 
exactly right. That is something which our experience fully 
bears out.
    So our dollars have been early, flexible and patient. 
Early, flexible and patient. And that has been just an absolute 
key factor, I think, in making a difference for CDCs as they go 
out to do their work.
    When Living Cities began, we were all too familiar with the 
scores of Federal programs that had come before that had some 
successes, but also had a whole array of failures that none of 
us wanted to particularly remember. So we approached this work 
with a theory, with a very firm, clear theory, of how we wanted 
to see our efforts make a difference, and that theory has 
several parts. The first is that we wanted to build systems; 
that CDCs doing their work could do terrific work, but if the 
rest of the environment were dysfunctional, their work was 
going to be at least at serious risk. So that was about 
building partnerships broadly. Two hundred fifty partnerships 
we describe. I think it is probably an underestimate in terms 
of just what really is out there.
    We also talked about needing to have better administrative 
procedures on a local level as well as to streamline financing 
on a local level so that a CDC going out has a chance of being 
able to have a project be successful.
    Another part of what we wanted to take up was really this 
whole issue of leverage. Having one investor is just not 
practical. It just doesn't work. There is too much work to be 
done. So we have always emphasized in all the work the Living 
Cities has done has our dollar leveraging and what is our 
participation leveraging; given who we are, are we able to 
bring new actors to the table. And I think there, too, we have 
really seen that we have had some real successes.
    And the third element has been working through experienced 
hands, putting the dollars in a set of hands, in this case the 
national intermediaries, the Local Initiative Support 
Corporation and the Enterprise Foundation, to really be able to 
efficiently put the dollars into the marketplace and have them 
be well used and utilized.
    And the last part is really the--in some respects is 
actually the first part. It is really where we come full 
circle, and it really is the local organizations themselves. 
They are the eyes that make the deals happen and make the deals 
last. The community development corporations on the local level 
is where the vision begins. It is also where the shepherding of 
the project from start to finish takes place, and most 
importantly, it is the set of eyes that watches the program 
after we have all gone home. That is the thing that is 
demonstrably different about the work that is being done in our 
minds through CDCs than were done through other Federal 
programs. That is how we see sustained development taking 
place, and we commend the work that has gone on in preparing 
this bill, because it really does support the work of those 
organizations.
    Thank you.
    Mrs. Kelly. Thank you very much.
    [The prepared statement of Reese Fayde can be found on page 
39 in the appendix.]
    Mrs. Kelly. Mr. Rasheed.

 STATEMENT OF ABDUL RASHEED, PRESIDENT AND CEO, NORTH CAROLINA 
  COMMUNITY DEVELOPMENT INITIATIVE, ON BEHALF OF THE NATIONAL 
      CONGRESS FOR COMMUNITY ECONOMIC DEVELOPMENT (NCCED)

    Mr. Rasheed. Thank you, committee Chairwoman Kelly, 
Congresswoman Jones, and to all the other distinguished members 
of this committee, the distinguished gentleman from North 
Carolina, the Honorable Mel Watt. Thank you, and I am pleased 
to be here in your presence. I am very pleased to be here today 
representing the National Congress for Community Economic 
Development, which is the national trade association that 
attempts to represent the basic interests of the field.
    I also manage on a day-to-day basis the North Carolina 
Community Development Initiative, which is on the ground in 
North Carolina working in rural small towns and our population 
centers like the big city of Charlotte and the great city of 
Mecklenburg, which the Representative is from. We want to say 
as a national community of practitioners on the ground doing 
the work that first and foremost to the success of the field is 
investment, and this bill clearly represents increased 
investment in the expertise, in enabling and bringing 
intelligence, access to information, more capacity, if you 
will, to those organizations and leaders in the community who 
are trying to be about change, quality of life, more 
opportunity, and then raising their own voices in their 
community to participate in those discussions locally that 
impact on their lives on a day-to-day basis. We see the deal 
not as the end itself, but as the means to an end.
    We also would like to have the committee consider that this 
bill also helps us increase, as you have heard from all of our 
colleagues, the productivity of these organizations at the 
local community level. It is very difficult to expect and hold 
accountable organizations when they do not have the tools and 
resources to match the level of expectation that we have for 
them in the field, and I would advance to you, as you so well 
know, that we are operating and trying to work in the most 
difficult environments in this country, and the need is so 
great for increased investment. This investment will go right 
to the heart of trying to increase our productivity, put us in 
a better position to be held accountable for quantifiable, 
measurable outcomes that will certainly speak to the impact in 
the community as it relates to housing, jobs and access to 
increased capital.
    And I would say that our experience in North Carolina, 
again as indicated by previous speakers, the private sector 
becomes much more comfortable in engaging with us in the local 
community when they have some assurance that we have the 
expertise, that we have the intelligence, the knowledge to, in 
fact, begin and finish a project; not just get into a deal, but 
to complete a deal. And for that reason, we have been able to 
attract more private sector participation. We have been able to 
encourage local government participation at a higher level of 
involvement as a result of their comfort level with the 
community-based organization having the access to the 
intelligence, to the technical assistance that it needs in 
order to complete the deal.
    Lastly, I would say that if we are going to sustain the 
work long term in the communities, that it has great momentum 
at this point in time, it is because we are going to increase 
access to intelligence, technical assistance, and capacity 
support. So I encourage your support for this increased 
investment on behalf of the national community of people on the 
ground doing the work every day.
    I would also encourage--I understand that there is some 
consideration at doing an assessment and a look at all of the 
technical programs that have been mentioned that are being made 
available to organizations across this country. I would ask you 
to look specifically at how those programs are engaging CDCs, 
because a lot of these programs are not necessarily available 
to CDCs in terms of their access to technical assistance. Some 
are, but many are not. So I think your assessment would, in 
fact, bear that out and give you at least the kind of 
intelligence that you need to adjust some of these programs, 
such that if the desire is there to assist CDCs, that you will 
have an opportunity to do so.
    Mrs. Kelly. Thank you.
    [The prepared statement of Abdul Rasheed can be found on 
page 118 in the appendix.]
    Mrs. Kelly. Mr. Swack.

   STATEMENT OF MICHAEL SWACK, DIRECTOR, SCHOOL OF COMMUNITY 
      ECONOMIC DEVELOPMENT, SOUTHERN NEW HAMPSHIRE COLLEGE

    Mr. Swack. Madam Chairwoman, committee members, thank you 
for--.
    Mrs. Kelly. Mr. Swack, please turn on your microphone.
    Mr. Swack. Madam Chairwoman--.
    Mrs. Kelly. If you would, pull it a little closer. That 
would be good, too. Thank you.
    Mr. Swack. Thank you for inviting me to testify in front of 
your committee on the Community Economic Development 
Enhancement Act of 2002. I am currently the director of the 
School of Community Economic Development at Southern New 
Hampshire University, a position I have held for the last 20 
years. The School of Community Economic Development is, as far 
as I know, the only school in the country that offers both 
master's and doctoral degrees specifically in the discipline of 
community economic development. I am also proud to see that one 
of my students is sitting next to me today and has testified.
    I wish to share with you briefly the perspective that I 
have gained as an educator and a practitioner in the field of 
community economic development and then respond briefly to the 
questions that the committee has posed.
    The School of Community Economic Development at Southern 
New Hampshire University serves adult practitioners working in 
the field of community economic development. Most of our 
students work for private nonprofit community development 
organizations. Students enrolled in our master's program 
commute and attend classes 3 days per month over a period of 2 
years. They come from all over the country. The average age of 
our students is 37 years old, and they range in age from their 
midtwenties to their early sixties. We accept about 50 new 
students per year in our weekend master's program. Over the 
past 20 years we have graduated close to 1,000 students. Over 
half our students have been African American, Latino or Native 
American. An independent survey of our graduates conducted in 
the year 2000 reveal that over 90 percent of our graduates have 
remained working in the field of community economic development 
since attending the school.
    The mission of the School of Community and Economic 
Development is to provide education and training to a diverse 
group of community economic development practitioners, 
policymakers and community leaders and equip them with the 
knowledge, skills, tools and techniques to have the greatest 
impact at improving the economic and social well-being of their 
communities.
    We define community economic development as a strategy for 
people to develop the economies of their communities while 
providing benefits for community residents; a systematic and 
planned program promoting economic self-reliance, focusing on 
issues of local ownership and the capacity of local people; a 
program for helping consumers become producers, users become 
providers, and employees become owners of economic enterprises; 
and a method of building efficient, self-sustaining and locally 
controlled initiatives that support profitable ventures and 
effective social programs.
    Our curriculum is unique. It is a business-school-type 
curriculum, but the materials, cases, readings are specifically 
geared for people working in nonprofit community development 
organizations. Students are required to take courses in 
accounting, financial management, business development, 
financing, community economic development and organizational 
development. Over a third of the credits they earn in the 
program is through a project that they carry out in their home 
communities. Faculty and staff provide technical assistance to 
the projects, and students are part of a project group of peers 
who are often working on similar projects in their own 
communities.
    We also offer a number of elective classes in areas such as 
real estate, marketing and negotiations. Students also are 
required to submit work online and participate in online 
activities.
    People apply to their program because they want to be more 
effective practitioners. This is what they tell us in the 
personal statements they submit. They are also committed to 
working in the field of community and economic development 
because they want to improve the quality of life in their 
communities, and they stay working in the field.
    What we have learned over the last 20 years is that 
education works. Our model, which combines classroom learning, 
peer support and practical application of skills in the 
students' home communities, has enhanced practitioner 
effectiveness. People have developed practical skills, built 
leadership skills, developed contacts and networks, and have 
used these skills and networks to build more effective 
organizations, organizations better able to develop projects, 
build housing, leverage financial resources, innovate and 
sustain themselves.
    Our model is not the only effective training model in the 
field today. There are other initiatives aimed at building 
human capital as we have heard about, and they are also 
effective.
    So how will this legislation help the field of community 
economic development? In the letter, there were a few questions 
posed. Why do we need a program like this since the Federal 
Government already spends billions? What tangible results can 
we expect? How have the challenges facing the CDC industry 
changed? What approaches are required to help communities 
rebuild?
    Most programs funded by the Federal Government fund 
projects; however, if local communities don't have the skills 
to help manage projects, they won't have access to funds. 
Building the capacity of local people and local organizations 
is key to the development process. Without proper skills and 
leadership, community organizations either are unable to access 
funds, or if they do, the projects they develop will fail. 
Funders have frequently resisted funding activities that build 
organizations. They don't like to pay for salaries or 
education. They want concrete projects, literally. In fact, we 
need funds for both concrete and human needs if we want to 
build communities. H.R. 3974 recognizes this.
    In order to access funds, an organization should be able to 
present a clear business plan with goals and objectives. 
Funding should be tied to achieving those goals and objectives. 
This is a process that Mr. Rasheed and his organization have 
developed, as have Federal programs such as the CDFI fund at 
the Department of Treasury. Funds should also be used to 
provide education and training to younger, less experienced 
groups so they can develop these plans. The legislation should 
also fund educational and training initiatives that are 
substantial, rigorous and well designed. Educational and 
training funds should allow for a range of different providers 
and initiatives that can serve different constituencies in 
different regions.
    The CDC industry has changed over the past 20 years. 
Although still asked to blend economic and social goals, CDCs 
now need to be much more sophisticated organizationally and 
financially in order to succeed. Deals for housing and business 
development are often complex. Over the past 2 years, our 
school has sponsored the Financial Innovations Roundtable. The 
purpose of this roundtable is to develop concrete ideas that 
link conventional and nonconventional lenders, investors and 
markets in order to provide increased access to capital to low-
income communities.
    One thing the roundtable has made clear: If communities are 
to move into the broader capital markets and better able to 
leverage--.
    Mrs. Kelly. Excuse me, Mr. Swack, but you had a 5-minute 
summary, and I would like you, please, if you would summarize 
that--.
    Mr. Swack. Sure.
    I believe that the proposed legislation, H.R. 3974, can 
make an important contribution to building the capacity of CDC 
practitioners. It will help build stronger, more stable 
community organizations, better able to develop viable 
projects, get them financed, and improve the quality of life. 
Thank you.
    Mrs. Kelly. Thank you very much.
    [The prepared statement of Michael Swack can be found on 
page 129 in the appendix.]
    Mrs. Kelly. Ms. Harris.

   STATEMENT OF GRETA HARRIS, SENIOR PROGRAM DIRECTOR, LOCAL 
             INITIATIVES SUPPORT CORPORATION (LISC)

    Ms. Harris. Thank you, and good afternoon, Madam Chairwoman 
and members of the subcommittee. My name is Greta Harris, and I 
am pleased to have the opportunity to testify before you today 
on enhancing community development.
    I am the director of the Richmond office of the Local 
Initiative Support Corporation, one of 38 LISC offices 
nationwide located in communities represented by several 
members of your subcommittee.
    Over our 20-year history, LISC has provided $4.5 billion to 
CDCs as investments, loans and grants, helping them to build 
over 121,000 affordable homes and nearly 18 million square feet 
of shopping centers in other economic development cities. I 
have nearly 20 years of experience in rebuilding communities, 
the majority of which has been spent working at the 
neighborhood level in organizations that have directly 
benefited from strategic capacity building. I would like to 
share with you a bit about LISC's experience in using these 
funds both nationally and in Richmond, as well as about the 
systems we have put in place to ensure that these funds 
translate into real change in the neighborhoods where we work.
    The LISC experience has shown that the Section 4 capacity-
building program has been extremely productive. To date, LISC 
has received $60 million through Section 4, which we have used 
to attract $200 million in private matching funds. Taken 
together, these resources have been invested into 427 CDCs 
located in 42 States and the District of Columbia. These 
partners in turn have produced approximately 26,000 affordable 
homes as well as retail, industrial and child care facilities. 
These activities equate to over $3.4 billion of community 
reinvestment activities in distressed neighborhoods. That is a 
58 times increase of the amount of Section 4 funding that we 
have received, a remarkably productive use of Federal funds.
    In Richmond we have combined $618,000 of Section 4 funding 
with $1.5 million of matching private contributions to fund an 
operating support collaborative that mixes funding, technical 
assistance and training to build the capacity of 12 CDCs 
working in the greater Richmond community.
    Industry wide and throughout our region, the results of the 
strategic placement of capacity-building dollars has been 
stunning. Since 1997, multifamily housing production has 
quadrupled, single family production tripled, and grants to 
existing homeowners for repairs is nearly double. Essentially 
these capacity-building assistance resources have allowed the 
CDCs to function better as nonprofit businesses. Currently 100 
percent of our CDC partners use strategic business plans, up 
from 15 percent just 3 years ago, and many have strengthened 
and expanded their programmatic activities, which directly 
translates into positive results for the community, the end 
goal for which we are all striving.
    Certainly without funding, none of the successes I have 
outlined above would have been possible. However, funding by 
itself is not enough to ensure success. I strongly believe that 
LISC's use of Section 4 funding has been effective in part due 
to the systems that have been put in place, both nationally and 
locally, to ensure that these funds translate into direct 
change in our neighborhoods. For example, in Richmond there is 
oversight of all local funding decisions. We fund only a select 
number of CDCs that meet certain eligibility criteria. We 
target funding based on full 360-degree assessments, and we 
bundle funding with technical assistance and training. And 
perhaps most importantly, we have a close ongoing relationship 
with our CDC partners, which allows us to monitor their 
progress and to help them get back on track when issues 
sometimes arise. I think HUD and other funders have been 
rigorous and responsive partners in this program to help turn 
neighborhood liabilities back into community assets.
    The role of CDCs, as we see it, is not to address all of 
the issues facing American cities. It is to jump-start the once 
stagnant market engines in these neighborhoods and over time 
attract private capital back into these communities, thereby 
reconnecting them back to the economic mainstream.
    Ms. Harris. I invite all of you to come to Richmond or any 
LISC city where we are working and see firsthand the successes 
we are having.
    I thank you for the opportunity to speak before you today.
    Mrs. Kelly. Thank you very much, Ms. Harris.
    [The prepared statement of Greta Harris can be found on 
page 75 in the appendix.]
    Mrs. Kelly. Mr. McCool, I have a question for you. I would 
like for you to explain a little bit about how section 4 of the 
HUD's demonstration act in 1993 works. Has this been an 
effective means of demonstrating the money to the CDCs?
    Mr. McCool. Madam Chairwoman, we have looked at HUD 
programs broadly, and we have information about section 4, but 
we haven't looked specifically at its effectiveness in terms of 
delivering funds. We haven't really dug deep into that specific 
part of the HUD programs.
    Mrs. Kelly. Mr. McCool, I wonder if we could ask you, 
please, to go back into your studies and address that before 
you deliver us the final product, or else do further study.
    Mr. McCool. I think we are certainly willing to do further 
study. The actual mechanics of it we might need to work out.
    Mrs. Kelly. We can work out the mechanics. One of the 
serious problems we have here is, we are just having a hard 
time getting our arms around fact; and we count on people like 
you and your organization to deliver us that fact. So if you 
would please do that, we would appreciate it.
    I have a question for you, Mr. Rasheed. On page 5 in your 
testimony, you basically state that no Federal funds provide 
assistance directly to CDCs for capacity building and technical 
assistance. How is this statement consistent with the GAO 
statement that 120 to 200 million is spent on technical 
assistance and capacity building, and Ms. Fayde's statement 
that half a billion dollars will be spent in the next decade, 
and a part of that is Federal funding? Can you help us 
understand that, please?
    Mr. Rasheed. Basically what CDCs are attempting to say is 
they don't have an opportunity to directly compete for these 
funds as a means of support in their programs. And I can't 
speak for--I will let my colleagues speak for how their 
statements bear out. HOME CHDO technical assistance are 
available at the local community level if a participating 
jurisdiction chooses to provide those funds. Other funds that 
can be available are YouthBuild funds, some CDBG funds, and 
homeless money. Those are the only resources we can compete 
for, and these are difficult for CDCs to access.
    Mrs. Kelly. Mr. Rasheed, the indication--here again, we 
have a question of whether or not money is provided and whether 
or not it is the right money; and if it is not, we need to 
figure out what it is. So let me ask you one other question.
    What oversight, if any, exists in the CDCs right now? As 
the trade association for the CDCs, what can you do, or what do 
you do, to ensure that quality technical assistance is being 
provided by the CDCs?
    Mr. Rasheed. That quality technical assistance is being 
provided by the CDCs?
    Mrs. Kelly. You are representing the trade organization of 
the CDCs. I would like to know what quality technical--and this 
is not an adversarial hearing. We are trying to get 
information, so we need that. So talk to me about what quality 
assurance you have built into oversight of the CDCs, what the 
CDCs are doing now, what your trade organization is doing. If 
you can't answer that, please consult with the people behind 
you, so we can get some facts.
    Mr. Rasheed. Currently CDCs only have a couple of technical 
assistance programs that we actually administer. The majority 
of those are technical assistance funds administered by CDCs 
are to first-time homebuyers and small and micro-enterprise 
entrepreneurs. These federal funds come from the U.S. 
Department of Agriculture and HUD's housing counseling programs 
like PRIME and Microloan T.A. As far as technical assistance 
programs for CDCs, these are budgets like HOME and CDBG. Other 
programs like CHDO and Youth Build are specific to the goals of 
the program, not the intentional market based approaches to 
revitalize the community.
    Otherwise, in terms of just a general oversight, we try to 
have different kind of programs. We get involved with setting 
standards or trying to help elevate and participate with other 
organizations such as state and city CDC associations and 
statewide nonprofit associations. CDC, like all nonprofits, are 
accountable to the IRS, their boards of directors and those 
institutions and individuals that invest in them. They are 
trying to just, overall, improve and raise the bar in terms of 
excellence and what is necessary in order to compete with these 
projects and in the field of community economic development.
    Mrs. Kelly. Mr. Rasheed, do you feel there is adequate 
oversight from the Federal Government?
    Mr. Rasheed. For the programs that are out there, I would 
say, yes, there is good oversight. I am not questioning the 
oversight of the Federal Government in terms of the programs 
that they currently administer.
    Mrs. Kelly. I am raising that question. I am asking you 
your impression, your industry's impression, of what the 
Federal Government is doing to help you with oversight.
    Mr. Rasheed. I can't say they are doing a lot directly to 
help me in North Carolina, because I don't have any direct 
Federal dollars. But in terms of the field in general, 
basically we understand the criteria as established by HUD and 
other Federal programs, and we try to respond to those programs 
in ways that enhance our ability to get jobs done.
    Mrs. Kelly. Mr. Rasheed--were you finished?
    Mr. Rasheed. Yes.
    Mrs. Kelly. Mr. McCool, would you like to answer that for 
me, please.
    Mr. McCool. Sorry, ma'am?
    Mrs. Kelly. I am asking a question about whether or not 
there is adequate HUD oversight.
    Mr. McCool. Well, again from our broad look, we think that 
HUD does have oversight mechanisms in place in terms of whether 
services are actually delivered, whether classes are actually 
held.
    Our question, I guess, with respect to these programs is 
the extent to which HUD has reasonable measures of the impact 
of the programs on the recipients to whom their service is 
delivered.
    Mrs. Kelly. On page 2 in a summary--in your summary on the 
GAO statement, I find here it says we are recommending that 
HUD, where possible, measure the impact of technical assistance 
and develop assistance guidance for program offices to use. The 
indication in other places--and I don't want to take the time 
of the members and the people in the room--from reading your 
GAO report, I got the impression that there was some question 
about Federal HUD oversight on these programs. So perhaps we 
could clear that up.
    Mr. McCool. Right. But again, I think the issue had more to 
do--it all depends on how you define oversight versus, again, 
effectiveness.
    I think the oversight that we were talking about earlier 
had to do with whether the services were delivered, whether the 
money was spent in accordance with the way it was intended, as 
opposed to whether the technical assistance had a meaningful 
effect from a programmatic respect. It is the latter where we 
are pushing on HUD to do a better job in trying to understand 
whether these technical assistance capacity building programs 
are actually having a meaningful programmatic effect rather 
than, yes, they were done in accordance with the law and in 
compliance with what was agreed to.
    Mrs. Kelly. Mr. McCool, that is something we need to know.
    With unanimous consent, I have a letter from Ms. Roukema 
and myself that I would like to insert in the record, asking 
the GAO to conduct a review of the technical assistance 
capacity-building programs at HUD for additional questions that 
didn't seem to get answered in this GAO report. So with 
unanimous consent, I will insert this in the record.
    [The following information can be found on page 135 in the 
appendix.]
    Mrs. Kelly. Let us go now to Ms. Jones.
    Mrs. Jones of Ohio. Thank you, Madam Chairwoman.
    I would like to continue with some questioning, Mr. McCool. 
In fact, most of the programming that HUD does technical 
assistance with through Living Cities--and Living Cities is 
doing a great job, but there are only 23 cities that actually 
receive funding through that program; is that correct, sir?
    Mr. McCool. That's correct. The Living Cities part of the 
section 4, that is true.
    Mrs. Jones of Ohio. And the reality is, with all the money 
that HUD is spending for technical assistance, there are a 
limited number of cities and organizations that are accessing 
dollars across the country; is that fair?
    Mr. McCool. That is my understanding.
    Mrs. Jones of Ohio. Would it not be advantageous outside 
for other cities to have the opportunity to build the capacity 
of the community development corporations across this country 
in light of the fact they all pay into the tax base of our 
country?
    Mr. McCool. It would certainly be advantageous for the 
CDCs. I guess the question always is where the Federal dollars 
come from and what alternative uses of Federal dollars there 
are.
    Mrs. Jones of Ohio. Let us talk about that for a moment.
    The CDCs, in actuality, get very little direct money from 
any of the programs that you have done a review on, the 21 
technical programs; is that a fair statement?
    Mr. McCool. They certainly don't get a majority of the 
funding. They get a part of the funding.
    Mrs. Jones of Ohio. How much?
    Mr. McCool. $10 million or 20 million.
    Mrs. Jones of Ohio. Out of how much?
    Mr. McCool. Out of the 170 to 200 million.
    Mrs. Jones of Ohio. Over what period of time?
    Mr. McCool. Over the 5-year period over which our study was 
conducted.
    Mrs. Jones of Ohio. I would like for you in part of your 
report from the GAO to tell me specifically what money goes 
directly to CDCs from any of the 21 technical assistance 
programs.
    I would also like to know, of the 21 technical assistance 
programs, in what year some of those programs have received no 
appropriation whatsoever; because I am aware that there are 
some that have not received any appropriations, which means 
that none of that money was going out to some of these 
programs. And I am interested in that because when we talk 
about this world of technical assistance to community 
development corporations, it is kind of in a vacuum when the 
facts speak a little differently.
    Do I need to repeat any of what I have asked of you, sir?
    Mr. McCool. No.
    Mrs. Jones of Ohio. Let me ask, Dr. Swack, even with all 
the technical assistance programs that the GAO currently claims 
are provided to CDCs, what else could CDCs use to be able to 
improve their lot in the lot of their communities that may well 
be covered by this legislation?
    Mr. Swack. I think that is a good question because it 
allows us to make a distinction between technical assistance 
and education. Technical assistance is useful, but doesn't 
always build capacity; and what we are talking about is, how do 
we build the capacity of indigenous local leadership to manage 
organizations, develop projects and carry them out.
    One of the things this legislation does is, it specifically 
addresses the question of education as well as technical 
assistance. So it is not just hiring a lawyer or hiring an 
accountant to do something. It is building the local 
organization and the capacity of individuals in that community 
to carry out projects, put together deals, learn how to do it 
themselves, do better ones; and this legislation does this 
that.
    Mrs. Jones of Ohio. In addition, Mr. McCool, could you 
include in your report what money goes to community development 
corporations for capacity building, not just technical 
assistance, in your response?
    Mr. Rasheed, would you care to answer that same question, 
sir.
    Mr. Rasheed. Madam Chairwoman, I think I agree with Dr. 
Swack in saying that what we need is resources that help build 
and sustain the capacities of organizations to maintain their 
momentum and to be flexible enough to respond to opportunities 
in their community. This bill does speak to that in both 
instances in that it will provide resources to hire the kind of 
professional expertise to do a specific deal. But it also is 
flexible enough to allow us to have resources to help educate 
the organization about how to operate as a business such that 
it can sustain itself when resources ebb and flow.
    I also would like to, if I might--go back to an earlier 
question, if I might, and say that most of the technical 
assistance dollars that you asked me about earlier actually go 
to cities and intermediaries and not to CDCs, and they then 
have to go to the city to get at those resources. Many cities 
choose not to provide technical assistance funding to 
nonprofits at all. The programs do not require a city or P.J. 
to provide capacity building or technical assistance. So that 
is what I was trying to say earlier.
    And lastly, I would say in looking at how assessing and 
trying to figure out how best to make these dollars available 
in the future, I think the oversight committee mentioned in my 
testimony that would involve others with the HUD staff could in 
fact tighten that up and bring about the oversight that you 
desire. We could see not only what was provided but what the 
impact was. We could also note technical assistance that was 
not provided.
    Mrs. Jones of Ohio. My time is up, and hopefully we are 
going to get another round where I will be able to ask some 
questions of the other members of the panel.
    Mrs. Kelly. Thank you, Ms. Jones. I want to, for the 
record, make Ms. Tubbs Jones' request to the GAO a part of the 
record so that it is understood that it is an official request.
    Mr. McCool. It is understood.
    Mrs. Kelly. We move now to Mr. Watt.
    Mr. Watt. Thank you, Madam Chair.
    Mr. McCool, you may think we are picking on you, but we are 
not. I just wanted to go to page 3 of the draft report, and 
your testimony I guess it is, and look at the chart that you 
have included there, which actually outlines the programs 
through which technical assistance is provided. And I take it 
the ones that community development corporations really have a 
shot at, under the Office of Community Planning and 
Development, section 4, Capacity Building, and section 107, 
Technical Assistance; is that correct?
    Mr. McCool. Yes, sir.
    Mr. Watt. The rest of these programs are kind of specific 
technical assistance to that particular program that, in most 
cases, community development corporations have little 
involvement with; is that correct?
    Mr. McCool. In most cases, that would be true.
    Mr. Watt. Now let me just kind of trace then across. You 
have done a 4-year study there, which suggests that in 1998, 
the combination of capacity building and technical assistance 
was $22 million; is that correct? Am I reading this correctly?
    Mr. McCool. 1998?
    Mr. Watt. 1998. And then in 1999, the combination of those 
two funds jumped up to $32.5 million; is that right?
    Mr. McCool. Yes, sir.
    Mr. Watt. And then in the year 2000, actually, technical 
assistance was either zeroed out or was not used in either 
2000, 2001 or estimated to be used in 2002, so that what you 
are left with then is only capacity building under section 4; 
is that right?
    Mr. McCool. It does include technical assistance, but it is 
true, it is under section 4.
    Mr. Watt. In actuality we went from $32.5 million in 1999 
down to $26.3 million available in 2000, and actually didn't 
get back to even the 1999 level in 2001; is that right?
    Mr. McCool. Yes, sir.
    Mr. Watt. I am just trying to make sure I am reading this 
correctly because it seems to me that even based on what we 
have here, there have been--there has certainly not been any 
growth in these two technical assistance funds, and, in fact, 
there has been a reduction in the technical assistance that is 
available--I mean, capacity building and technical assistance 
considered together; is that right?
    Mr. McCool. Either reduction or it has been reasonably 
flat.
    Mr. Watt. This is obviously not your fault. I just want to 
make sure that people understand that part of the problem here 
is that there really has not been any increase in funding for 
technical assistance. And I take it, then, the bulk of this 
technical assistance--Ms. Fayde and Ms. Harris, is it correct 
that the bulk of this has been going to Living Cities and the 
LISC programs. Where has it been going to? Who has been getting 
the bulk of this money?
    Ms. Harris. The bulk of the money has actually been going 
to the CDCs that partner with LISC, Enterprise and with Living 
Communities initiative.
    Mr. Watt. And that is directed primarily at 23 cities?
    Ms. Harris. That is beyond that. Those are the Living 
Communities, participating cities with section 4 dollars go 
beyond those initial 23 and actually are reaching CDCs located 
in, I believe, 42 States and actually reaching down at the 
local level to just under 300 local jurisdictions, because in 
some cases, CDCs actually work in multiple jurisdictions in a 
regional area. So it does have a broader reach than just 23 
cities. It certainly is not reaching all CDCs who are currently 
working throughout the country, but it is broader than the 23 
cities.
    Ms. Fayde. Perhaps I could clarify by just explaining some 
of the mechanics in terms of when the dollars are targeted 
toward the 23 cities and when they are targeted in the off 
years from our perspective.
    Approximately every 3 years, a portion of the allocation in 
this last round, it would have been $20 million, was targeted 
to the Living Cities work plans that were executed by LISC and 
Enterprise. Those dollars, I would suggest probably 90 percent 
if not more, go through LISC and Enterprise directly to the 
CDCs. But that is in those 23 cities. On the other years, if 
you will, two and three, those dollars go through LISC and 
Enterprise's networks as well as other organizations.
    Mr. Watt. Let me interrupt you because I don't want to lose 
sight. I don't want to get too technical on what is happening.
    Let me just ask this general question, which I would ask 
everybody but Mr. McCool, because I doubt he has an opinion on 
it, to just answer yes or no. If there were more funds and if 
this bill were in place, do you think that capacity and the 
delivery of what is currently in place would be more effective 
in our communities?
    And let me start with Mr. Harvey and just go down, because 
my time is already out, and just say yes or no.
    Mr. Harvey. Yes. There is a great need for more technical 
assistance. We aren't reaching all of the groups that we need 
to reach. And if done in the right way, in an accountable way, 
it will make a big difference.
    Mr. Watt. Ms. Fayde, yes or no?
    Ms. Fayde. Absolutely yes.
    Mr. Watt. Mr. Rasheed.
    Mr. Rasheed. Absolutely yes.
    But can I add, just to give an example, the dollars that 
are being proposed could actually be absorbed just in these 23 
cities. I am talking about the additional dollars. So if those 
cities could use additional money to have greater impact, just 
think about the rest of the country.
    Mr. Watt. Dr. Swack?
    Mr. Swack. Yes.
    Mr. Watt. And Ms. Harris?
    Ms. Harris. Absolutely yes, but--more money is always good, 
but the delivery system is critical for ensuring that those 
dollars reach the end goal that we are shooting for.
    Mr. Watt. Thank you, Madam Chair. I am sorry we went over.
    Mrs. Kelly. That is quite all right. We need the 
information and that was a good question.
    Ms. Lee.
    Ms. Lee. I would like to ask Mr. McCool this question also. 
First, let me just ask you in terms of technical assistance and 
capacity-building funds since the 1960s, since actually the 
community development corporations began somewhere in the 
1960s, how do you see the need now? Has the mission of CDCs, 
from your point of view, changed, and what do you see as the 
outcomes? What should the goals of CDCs be at this point in the 
year 2002?
    Mr. McCool. Ms. Lee I am not sure if I am the right person 
to answer that question. I am not sure--we have been tracking 
the goals of CDCs. I think the people who are more closely on 
the--
    Ms. Lee. Let me ask you, we have to understand what the 
Federal Government sees as the role of CDCs. Is it economic 
development? Is it job creation? Is it poverty alleviation? Is 
it entrepreneurial development? There has got to be some kind 
of--
    Mr. McCool. I think it is clear that all of the above is 
the answer, but I think there has been a shift, in my view, 
toward the entrepreneurial end of the spectrum in recent years, 
which has been reflected in a lot of what you see in terms of 
the partnerships that have been generated.
    Ms. Lee. In terms of direct funding assistance to CDCs, it 
is my understanding that right now the funding goes through the 
cities, right, through local governments not directly to local 
CDCs?
    Mr. Rasheed, could you answer that?
    Mr. Rasheed. For the majority of programs.
    Ms. Lee. But the direct funding which goes directly to CDCs 
at this point, are there any?
    Mr. Rasheed. No, ma'am, not for technical assistance.
    Ms. Lee. Capacity building?
    Mr. Rasheed. No. No direct funding.
    Ms. Lee. Then let me just ask, Mr. McCool, how does HUD 
actually measure the success? How do you evaluate the CDC 
movement, in essence? How do you know that CDCs are complying 
with what we all know they should be doing, if, in fact, there 
is no direct funding to CDCs?
    Mr. McCool. As part of HUD's contractual arrangements, it 
does ask for performance goals and does evaluate that within 
the context of its contractual obligations. Again, our issue is 
a slightly broader one looking at the programs where HUD 
itself, through either its own agents or through its 
intermediaries, provides the technical assistance and capacity 
building. But it is clear that this notion of trying to get a 
sense of what the impact and the outcomes of these programs are 
is part of the ongoing necessity for oversight from HUD's 
perspective.
    Ms. Lee. I am going to yield a minute to my colleague--let 
me just follow up then and just ask, I am trying to get clear, 
how would HUD--and I don't know if HUD has taken a position yet 
on this bill, but don't you think direct assistance, direct 
funding for CDCs in terms of capacity building and technical 
assistance would enhance the overall goals of the CDCs and what 
HUD and what our Federal Government see as the outcomes--what 
the outcomes should be?
    Mr. McCool. Again, enhancing capacity building for CDCs, I 
am sure, would improve or at least generate the potential for 
more effective local economic development. The question is 
always one of alternative use of resources, which again is 
where we sort of drop out and let the folks who are more 
involved on the floor be the advocates of that sort of thing.
    Ms. Lee. Could I ask any one of the panelists if you could 
respond very quickly to that: In terms of the outcomes that we 
are looking at, would this enhance job creation, 
entrepreneurial development, economic development, poverty 
alleviation if, in fact, this bill were signed into law?
    Mr. Rasheed. Absolutely yes. And I would again point you to 
sections of the bill, section 4 that asks for an assessment of 
the community economic development expertise, one point.
    Secondly, we also in the bill ask for an advisory council 
that would work with HUD to look at establishing and looking at 
a criteria to better evaluate the effectiveness not only of the 
programs and the mechanisms, but also the results we see on the 
ground.
    And thirdly, section 6, coordinate this with the 
President's annual budget request.
    Ms. Lee. Thank you very much, Madam Chair, and thank you 
for the time.
    Mrs. Kelly. Thank you, Ms. Lee. I, with unanimous consent, 
would like to give Ms. Tubbs Jones an additional 5 minutes. 
This is a hearing which she has requested, and I think we are 
beginning to open up some of the information that we need. 
Certainly it is evident we need a great deal more. With that in 
mind, I would like to turn it over to Ms. Tubbs Jones for 
another 5 minutes for questioning.
    Mrs. Jones of Ohio. Thank you, Madam Chairman.
    First of all, let me thank each and every one of you for 
coming this afternoon to participate in this panel, and be 
clear that the purpose of this legislation is not to inroad on 
anybody's current opportunities to help community development. 
I am trying to expand the opportunity for community development 
corporations to be able to be operative.
    I come from Cleveland, Ohio, and I believe we have one of 
the best networks of community development corporations going, 
and I would like to see it happen all over the country. If I 
misstated that there were only 23 cities, I don't know all that 
you do, but I do know one program was originally focused on 23 
cities.
    Let me ask you this: Currently, Mr. Harvey, there is--we 
don't have a study or a review of capacity building from the 
government for the dollars we have expended. Is that a fair 
statement, sir?
    Mr. Harvey. I believe so.
    Mrs. Jones of Ohio. Would it be useful for the work that 
you do to have such a study?
    Mr. Harvey. Absolutely.
    Mrs. Jones of Ohio. I guess we haven't chosen an advisory 
council, but also an advisory council that would bring in the 
day-to-day people on the ground to participate, to say what we 
have experienced, would be useful as well?
    Mr. Harvey. Absolutely.
    Mrs. Jones of Ohio. Now you get 30 seconds to tell me 
whatever you want to tell me. That is it.
    I am coming to you, Ms. Fayde.
    Mr. Harvey. Thank you, Congresswoman.
    What I would say is, A, your bill deals with a critical 
shortage of what we need. We have got community development 
organizations that are really carrying out public needs, and 
they have no direct public capacity building or technical 
assistance. And so from the point of view of adding more 
resources, it is critically important and very much needed. 
Putting in a system of accountability, I think, is also 
absolutely essential. I think all of us agree that we have to 
measure performance, and tough choices have to be made. And so 
we would like to see that.
    Mrs. Jones of Ohio. Nine, eight, seven, six--Ms. Fayde.
    Ms. Fayde. The question has been asked, what has changed 
for CDCs in recent history; and it is that the world is just a 
different place and a more complicated place. And I think their 
ability to function is therefore really jeopardized by their 
ability to sort of stay at stride.
    So we are talking about major demographic changes occurring 
in urban neighborhoods. We are talking about needing to connect 
people in neighborhoods to larger economic markets and world 
markets.
    To be able to do that, you need more information, more 
experience, more skills; and I think the capacity building that 
is spoken to in this bill would assist the CDCs in being able 
to meet that challenge ably.
    Mrs. Jones of Ohio. Ms. Harris?
    Ms. Harris. Thank you. I want to answer Ms. Lee's question 
of the role of CDC's as it has changed; and I think the 
ultimate goal has not over the last four or so decades. It is 
ultimately to create healthier living environments for 
families, and I think that is the goal.
    The methodologies by which the CDCs are carrying out their 
activities has maybe expanded. It used to be primarily 
organizing, and then housing, and now it has moved into 
economic development and job creation. And those are all great, 
but it does beg for more experience and technical expertise so 
that the CDCs can be successful and effectuate change in the 
communities.
    The ultimate goal of this work, or the success of it, is 
through partnerships. So more resources are a good thing. The 
delivery system for those resources to ensure impact is 
critical.
    Mrs. Jones of Ohio. I thank you. I don't think I could have 
said it any better if I had to say it myself as one of the 
authors of the legislation.
    My next idea is to figure out how I can get SBA and HUD to 
work together to create businesses and housing and create a 
real community.
    So stay tuned, and thank you, Madam Chairwoman, for the 
opportunity.
    Mrs. Kelly. Thank you. If there are no more questions, then 
the Chair notes that some members may have additional questions 
that they may wish to submit in writing. So without objection, 
the hearing record will remain open for 30 days for members to 
submit additional written questions to the witnesses and to 
place the witnesses' response in the record.
    Mrs. Kelly. The panel is excused with our great 
appreciation and thanks for your time. This hearing is 
adjourned.
    Mrs. Jones of Ohio. One more thing, Madam Chairwoman, I 
would like to thank Representative Barney Frank for giving me 
the opportunity to be a ranking member in my second term in 
Congress. Thank you.
    [Whereupon, at 3:40 p.m., the subcommittee was adjourned.]


                            A P P E N D I X



                           September 17, 2002

[GRAPHIC] [TIFF OMITTED] T3585.001

[GRAPHIC] [TIFF OMITTED] T3585.002

[GRAPHIC] [TIFF OMITTED] T3585.163

[GRAPHIC] [TIFF OMITTED] T3585.003

[GRAPHIC] [TIFF OMITTED] T3585.004

[GRAPHIC] [TIFF OMITTED] T3585.005

[GRAPHIC] [TIFF OMITTED] T3585.006

[GRAPHIC] [TIFF OMITTED] T3585.007

[GRAPHIC] [TIFF OMITTED] T3585.008

[GRAPHIC] [TIFF OMITTED] T3585.009

[GRAPHIC] [TIFF OMITTED] T3585.010

[GRAPHIC] [TIFF OMITTED] T3585.011

[GRAPHIC] [TIFF OMITTED] T3585.012

[GRAPHIC] [TIFF OMITTED] T3585.013

[GRAPHIC] [TIFF OMITTED] T3585.014

[GRAPHIC] [TIFF OMITTED] T3585.015

[GRAPHIC] [TIFF OMITTED] T3585.016

[GRAPHIC] [TIFF OMITTED] T3585.017

[GRAPHIC] [TIFF OMITTED] T3585.018

[GRAPHIC] [TIFF OMITTED] T3585.019

[GRAPHIC] [TIFF OMITTED] T3585.020

[GRAPHIC] [TIFF OMITTED] T3585.021

[GRAPHIC] [TIFF OMITTED] T3585.022

[GRAPHIC] [TIFF OMITTED] T3585.023

[GRAPHIC] [TIFF OMITTED] T3585.024

[GRAPHIC] [TIFF OMITTED] T3585.025

[GRAPHIC] [TIFF OMITTED] T3585.026

[GRAPHIC] [TIFF OMITTED] T3585.027

[GRAPHIC] [TIFF OMITTED] T3585.028

[GRAPHIC] [TIFF OMITTED] T3585.029

[GRAPHIC] [TIFF OMITTED] T3585.030

[GRAPHIC] [TIFF OMITTED] T3585.031

[GRAPHIC] [TIFF OMITTED] T3585.032

[GRAPHIC] [TIFF OMITTED] T3585.033

[GRAPHIC] [TIFF OMITTED] T3585.034

[GRAPHIC] [TIFF OMITTED] T3585.035

[GRAPHIC] [TIFF OMITTED] T3585.036

[GRAPHIC] [TIFF OMITTED] T3585.037

[GRAPHIC] [TIFF OMITTED] T3585.038

[GRAPHIC] [TIFF OMITTED] T3585.039

[GRAPHIC] [TIFF OMITTED] T3585.040

[GRAPHIC] [TIFF OMITTED] T3585.041

[GRAPHIC] [TIFF OMITTED] T3585.042

[GRAPHIC] [TIFF OMITTED] T3585.043

[GRAPHIC] [TIFF OMITTED] T3585.044

[GRAPHIC] [TIFF OMITTED] T3585.045

[GRAPHIC] [TIFF OMITTED] T3585.046

[GRAPHIC] [TIFF OMITTED] T3585.047

[GRAPHIC] [TIFF OMITTED] T3585.048

[GRAPHIC] [TIFF OMITTED] T3585.049

[GRAPHIC] [TIFF OMITTED] T3585.050

[GRAPHIC] [TIFF OMITTED] T3585.051

[GRAPHIC] [TIFF OMITTED] T3585.052

[GRAPHIC] [TIFF OMITTED] T3585.053

[GRAPHIC] [TIFF OMITTED] T3585.054

[GRAPHIC] [TIFF OMITTED] T3585.055

[GRAPHIC] [TIFF OMITTED] T3585.056

[GRAPHIC] [TIFF OMITTED] T3585.057

[GRAPHIC] [TIFF OMITTED] T3585.058

[GRAPHIC] [TIFF OMITTED] T3585.059

[GRAPHIC] [TIFF OMITTED] T3585.060

[GRAPHIC] [TIFF OMITTED] T3585.061

[GRAPHIC] [TIFF OMITTED] T3585.062

[GRAPHIC] [TIFF OMITTED] T3585.063

[GRAPHIC] [TIFF OMITTED] T3585.064

[GRAPHIC] [TIFF OMITTED] T3585.065

[GRAPHIC] [TIFF OMITTED] T3585.066

[GRAPHIC] [TIFF OMITTED] T3585.067

[GRAPHIC] [TIFF OMITTED] T3585.068

[GRAPHIC] [TIFF OMITTED] T3585.069

[GRAPHIC] [TIFF OMITTED] T3585.070

[GRAPHIC] [TIFF OMITTED] T3585.071

[GRAPHIC] [TIFF OMITTED] T3585.072

[GRAPHIC] [TIFF OMITTED] T3585.073

[GRAPHIC] [TIFF OMITTED] T3585.074

[GRAPHIC] [TIFF OMITTED] T3585.075

[GRAPHIC] [TIFF OMITTED] T3585.076

[GRAPHIC] [TIFF OMITTED] T3585.077

[GRAPHIC] [TIFF OMITTED] T3585.078

[GRAPHIC] [TIFF OMITTED] T3585.079

[GRAPHIC] [TIFF OMITTED] T3585.080

[GRAPHIC] [TIFF OMITTED] T3585.081

[GRAPHIC] [TIFF OMITTED] T3585.082

[GRAPHIC] [TIFF OMITTED] T3585.083

[GRAPHIC] [TIFF OMITTED] T3585.084

[GRAPHIC] [TIFF OMITTED] T3585.085

[GRAPHIC] [TIFF OMITTED] T3585.086

[GRAPHIC] [TIFF OMITTED] T3585.087

[GRAPHIC] [TIFF OMITTED] T3585.088

[GRAPHIC] [TIFF OMITTED] T3585.089

[GRAPHIC] [TIFF OMITTED] T3585.090

[GRAPHIC] [TIFF OMITTED] T3585.091

[GRAPHIC] [TIFF OMITTED] T3585.092

[GRAPHIC] [TIFF OMITTED] T3585.093

[GRAPHIC] [TIFF OMITTED] T3585.094

[GRAPHIC] [TIFF OMITTED] T3585.095

[GRAPHIC] [TIFF OMITTED] T3585.096

[GRAPHIC] [TIFF OMITTED] T3585.097

[GRAPHIC] [TIFF OMITTED] T3585.098

[GRAPHIC] [TIFF OMITTED] T3585.099

[GRAPHIC] [TIFF OMITTED] T3585.100

[GRAPHIC] [TIFF OMITTED] T3585.101

[GRAPHIC] [TIFF OMITTED] T3585.102

[GRAPHIC] [TIFF OMITTED] T3585.103

[GRAPHIC] [TIFF OMITTED] T3585.104

[GRAPHIC] [TIFF OMITTED] T3585.105

[GRAPHIC] [TIFF OMITTED] T3585.106

[GRAPHIC] [TIFF OMITTED] T3585.107

[GRAPHIC] [TIFF OMITTED] T3585.108

[GRAPHIC] [TIFF OMITTED] T3585.109

[GRAPHIC] [TIFF OMITTED] T3585.110

[GRAPHIC] [TIFF OMITTED] T3585.111

[GRAPHIC] [TIFF OMITTED] T3585.112

[GRAPHIC] [TIFF OMITTED] T3585.113

[GRAPHIC] [TIFF OMITTED] T3585.114

[GRAPHIC] [TIFF OMITTED] T3585.115

[GRAPHIC] [TIFF OMITTED] T3585.116

[GRAPHIC] [TIFF OMITTED] T3585.117

[GRAPHIC] [TIFF OMITTED] T3585.118

[GRAPHIC] [TIFF OMITTED] T3585.119

[GRAPHIC] [TIFF OMITTED] T3585.120

[GRAPHIC] [TIFF OMITTED] T3585.121

[GRAPHIC] [TIFF OMITTED] T3585.122

[GRAPHIC] [TIFF OMITTED] T3585.123

[GRAPHIC] [TIFF OMITTED] T3585.124

[GRAPHIC] [TIFF OMITTED] T3585.125

[GRAPHIC] [TIFF OMITTED] T3585.126

[GRAPHIC] [TIFF OMITTED] T3585.127

[GRAPHIC] [TIFF OMITTED] T3585.128

[GRAPHIC] [TIFF OMITTED] T3585.129

[GRAPHIC] [TIFF OMITTED] T3585.130

[GRAPHIC] [TIFF OMITTED] T3585.131

[GRAPHIC] [TIFF OMITTED] T3585.132

[GRAPHIC] [TIFF OMITTED] T3585.133

[GRAPHIC] [TIFF OMITTED] T3585.134

[GRAPHIC] [TIFF OMITTED] T3585.135

[GRAPHIC] [TIFF OMITTED] T3585.136

[GRAPHIC] [TIFF OMITTED] T3585.137

[GRAPHIC] [TIFF OMITTED] T3585.138

[GRAPHIC] [TIFF OMITTED] T3585.139

[GRAPHIC] [TIFF OMITTED] T3585.140

[GRAPHIC] [TIFF OMITTED] T3585.141

[GRAPHIC] [TIFF OMITTED] T3585.142

[GRAPHIC] [TIFF OMITTED] T3585.143

[GRAPHIC] [TIFF OMITTED] T3585.144

[GRAPHIC] [TIFF OMITTED] T3585.145

[GRAPHIC] [TIFF OMITTED] T3585.146

[GRAPHIC] [TIFF OMITTED] T3585.147

[GRAPHIC] [TIFF OMITTED] T3585.148

[GRAPHIC] [TIFF OMITTED] T3585.149

[GRAPHIC] [TIFF OMITTED] T3585.150

[GRAPHIC] [TIFF OMITTED] T3585.151

[GRAPHIC] [TIFF OMITTED] T3585.152

[GRAPHIC] [TIFF OMITTED] T3585.153

[GRAPHIC] [TIFF OMITTED] T3585.154

[GRAPHIC] [TIFF OMITTED] T3585.155

[GRAPHIC] [TIFF OMITTED] T3585.156

[GRAPHIC] [TIFF OMITTED] T3585.157

[GRAPHIC] [TIFF OMITTED] T3585.158

[GRAPHIC] [TIFF OMITTED] T3585.159

[GRAPHIC] [TIFF OMITTED] T3585.160

[GRAPHIC] [TIFF OMITTED] T3585.161

[GRAPHIC] [TIFF OMITTED] T3585.162


</pre></body></html>
